Audit
Report
           PROMPTNESS OF FY 2002 FIRST QUARTER
           DOD PAYMENTS TO THE U.S. TREASURY
                FOR DISTRICT OF COLUMBIA
               WATER AND SEWER SERVICES


Report No. D-2002-007                 October 15, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
WASA                  Water and Sewer Authority
                        Office of the Inspector General, DoD
Report No. D-2002-007                                           October 15, 2001
   (Project No. D2001FA-0154)


        Promptness of FY 2002 First Quarter DoD Payments to the
            U.S. Treasury for District of Columbia Water and
                             Sewer Services

                                Executive Summary

Introduction. This report covers FY 2002 first quarter payments and is one in a series of
reports discussing the promptness and completeness of DoD payments to the U.S.
Treasury for District of Columbia water and sewer services. Public Law 106-554, the
Consolidated Appropriations Act of 2001, requires the inspector general of each Federal
agency to audit the agency’s promptness in paying the District of Columbia for water and
sewer services. The audit reports must be submitted to the House and Senate
Appropriations Committees within 15 days of the start of each quarter.

The District of Columbia Water and Sewer Authority supplies both water and sewer
services to Federal agencies and DoD Components within the National Capital Region.
The U.S. Treasury is the collection agent for Federal agencies and DoD Components’
water and sewer payments, with the U.S. Treasury submitting a single payment to the
Water and Sewer Authority. The DoD Components, composed of 17 separate
installations, sites, and organizations, are required to make advance quarterly payments to
the U.S. Treasury for estimated bills on anticipated water usage in FY 2002.

Objective. The audit objective was to determine the promptness of FY 2002 first quarter
DoD payments to the U.S. Treasury for District of Columbia water and sewer services.

Results. DoD Components did not make first quarter FY 2002 payments to the U.S.
Treasury for District of Columbia water and sewer services on the first day of the fiscal
year. Consequently, the U.S. Treasury withdrew $1 million available to Army and
Defense Components to pay the District of Columbia. Payments were not withdrawn
from the Navy and Air Force Components because of credit balances from prior
overpayments; or from Arlington National Cemetery’s appropriation because of Public
Law 107-20. Army officials dispute the appropriateness of the $77,000 the U.S. Treasury
withdrew for FY 2002 first quarter water and sewer services for Fort Myer.

Management Comments. We provided a draft report on October 9, 2001. No written
response to this report was required and none was received. Therefore, we are publishing
this report in final form.
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objective                                                      2

Finding
      DoD FY 2002 Payments to the U.S. Treasury                     3

Appendixes
     A. Audit Process
         Scope and Methodology                                      5
         Prior Coverage                                             5
     B. DoD Customers of the District of Columbia Water and Sewer
         Authority                                                  7
     C. Report Distribution                                         8
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations
    Act of 2001. Public Law 106-554 requires the inspector general of each Federal
    agency that receives water and sewer services from the District of Columbia to
    report to the Congressional Appropriations Committees on the promptness of
    payments within 15 days of the start of each quarter. This report covers FY 2002
    first quarter payments and is one in a series of reports discussing the promptness
    and completeness of DoD payments to the U.S. Treasury for District of Columbia
    water and sewer services.

    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and
    DoD Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (WASA) has been responsible
    for delivery of water and sewer services to DoD Components. WASA provides
    meter readings and annual estimated billings to the U.S. Treasury for water and
    sewer services provided to the Federal agencies, including DoD Components.

    U.S. Treasury Responsibility. Under the District of Columbia Public Works Act
    of 1954, the Federal Government was to receive water and sewer services from
    the District of Columbia, and the District of Columbia was paid with an annual
    lump sum in accordance with the District of Columbia Appropriations Act. The
    District of Columbia Appropriations Act of 1990 (Public Law 101-168) changed
    the payment process by designating the U.S. Treasury as the collection agent for
    the Federal agencies’ water and sewer payments, with the U.S. Treasury remitting
    a single payment to the District of Columbia. Public Law 106-554 amends the
    process used by the Federal agencies to make payments to the U.S. Treasury. The
    U.S. Treasury is now authorized and directed to automatically withdraw funds
    from Federal agencies and provide those funds to WASA by the second day of
    each quarter when agencies do not forward timely payments of amounts billed by
    WASA. The U.S. Treasury bills Federal agencies and DoD Components annually
    for their estimated water and sewer usage and makes quarterly payments to
    WASA based on meter readings and estimates provided by WASA. The
    DoD Components are required to make quarterly payments to the U.S. Treasury
    for those annual estimated bills. See Appendix B for a list of DoD components,
    composed of 17 separate installations, sites, and organizations, that received
    WASA services.

    Federal Agencies Responsibility. Public Law 101-168 mandates responsibility
    to the respective Federal agencies for payment of water and sewer services. The
    funds for the services come through the agencies’ operating budgets and their
    respective appropriations bills. Each quarterly payment is due to the U.S.
    Treasury account, “Federal Payment for Water and Sewer Services,” on the first
    day of the quarter. DoD Components make their payments to the U.S. Treasury
    through the Defense Finance and Accounting Service (DFAS).




                                        1
    DFAS Responsibilities. DFAS provides finance and accounting services, to
    include making bill payments, to DoD Components and other Federal agencies.
    Specifically, DFAS-Indianapolis Center provides financial services to the Army,
    DFAS-Cleveland Center provides those same services to the Navy, and DFAS-
    Omaha Operating Location provides financial services to the Air Force. The
    DoD Components submit requests for payments of water and sewer services to
    the appropriate DFAS location, and DFAS pays the U.S. Treasury either by check
    or electronic transfer in the amount indicated on the request.

Objective
    The audit objective was to determine the promptness of DoD FY 2002 first
    quarter payments to the U.S. Treasury for District of Columbia water and sewer
    services. See Appendix A for a discussion of the audit scope and methodology
    and prior coverage related to audit objectives.




                                        2
           DoD FY 2002 Payments to the U.S. Treasury
           DoD Components did not make first quarter FY 2002 payments to the
           U.S. Treasury for District of Columbia water and sewer services on the
           first day of the fiscal year. Consequently, the U.S. Treasury withdrew
           $1 million available to Army and Defense Components to pay the District
           of Columbia. Payments were not withdrawn from the Navy and Air Force
           Components because of credit balances from prior overpayments; or from
           Arlington National Cemetery’s appropriation because of Public Law
           107-20. Army officials dispute the appropriateness of the $77,000 the
           U.S. Treasury withdrew for FY 2002 first quarter water and sewer services
           for Fort Myer.




Supplemental Appropriations Legislation
    2001 Legislation. Public Law 107-20, the Supplemental Appropriations Act of
    2001, removes the authority of the U.S. Treasury to withdraw funds from
    Arlington National Cemetery for payment to the District of Columbia for water
    and sewer services. Public Law 107-20 requires that DoD pay the difference
    between the amount Arlington National Cemetery previously paid for estimated
    water bills and the actual amount billed to Arlington National Cemetery. Public
    Law 107-20 also directs the U.S. Treasury to reimburse Arlington National
    Cemetery for previous withdrawals with funds taken from other DoD
    appropriation accounts.

Promptness of FY 2002 First Quarter DoD Payments
    Pending approval of their FY 2002 budget, DoD Components, except Fort Myer,
    planned to make timely payments of their District of Columbia water and sewer
    bills for the first quarter of FY 2002. On Friday, September 28, 2001, a
    Continuing Resolution Authority was signed. However, there was not sufficient
    time to process the payment to the U.S. Treasury before Monday, October 1,
    when the U.S. Treasury withdrew the payment. The U.S. Treasury did not
    withdraw funds for Arlington National Cemetery’s bill. Arlington National
    Cemetery plans to pay its FY 2002 first quarter water and sewer bill when its
    FY 2002 budget is approved. As shown in the following table, DoD Components
    were billed $2.1 million and the U.S. Treasury withdrew available funds totaling
    $1 million for the first quarter of
    FY 2002 payment.




                                        3
                          DoD Components FY 2002 First Quarter Bills and Payments
                                         (As of October 1, 2001)
                                                     Amount Billed         Credits from Overpayments          Amount Withdrawn
                                                      (thousands)                  (thousands)                  (thousands)

   Pentagon                                              $343                                     0                  $343
   Arlington National Cemetery                             89                                     0                       0
                  1
   Fort Myer                                               77                                     0                      77
   Walter Reed Army Medical Center                        382                                     0                     382
                      2
   Fort McNair                                               6                                    0                      63
   Navy4,5                                                634                           $(1,028)                          0
   Bolling Air Force Base6                                409                               (580)                         0
   National Imagery and Mapping                           205                                     0                     205
          Total                                        $2,145                           $(1,608)                   $1,013
   1
    Fort Myer discontinued water services in January 1999. Fort Myer receives and pays for water services provided by
    Arlington County, Virginia
   2
       Includes Fort McNair, National War College, and National Defense University Center
   3
    Fort McNair paid $24,000 for the FY 2002 bill ; the $6,000 represents the quarterly payment
   4
       Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th & I), Naval
       Research Laboratory, Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard
   5
    Estimated amount billed for FY 2002 was $2.5 million ($634,000 represents the quarterly amount billed); a credit adjustment
    of $4.1 million ($1,028,000 represents the quarterly refund) for FY 1999 overpayments
   6
    Estimated amount billed for FY 2002 was $1.6 million ($409,000 represents the quarterly amount billed); a credit adjustment
    of $2.3 million ($580,000 represents the quarterly refund) for FY 1999 overpayments




Water and Sewer Bill for Fort Myer
        The water and sewer bill that Fort Myer received for FY 2002 reflects the WASA
        adjustment to Fort Myer’s actual usage for FY 1999. Although the U.S. Treasury
        withdrew $77,000 for Fort Myer’s bill, Army officials at Fort Myer believe that
        the bill should not be paid. From FY 1990 through FY 1998, Fort Myer water
        usage averaged $384,000 per year or $96,000 per quarter. In January of 1999 (FY
        1999), Fort Myer discontinued water services with WASA after one quarter of
        usage. The Army previously paid $185,000 for FY 1999 estimated water usage
        for Fort Myer. As a result, Army officials contend that the $185,000 paid on the
        FY 1999 estimated water usage for Fort Myer should be sufficient. Since Public
        Law 101-168 does not provide a mechanism to resolve billing disputes between
        WASA and Federal Agencies or between Federal Agencies and the U.S. Treasury,
        the Army will continue to work with the U.S. Treasury and WASA to resolve all
        outstanding issues regarding Fort Myer.



                                                             4
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD Component billing and payment
    information for the first quarter of FY 2002 for District of Columbia water and
    sewer services. Specifically, we reviewed bills received by DoD Components
    from the U.S. Treasury to establish the amounts billed for water and sewer
    services. We also contacted the U.S Treasury to confirm that funds available to
    DoD Components were withdrawn to pay the District of Columbia for FY 2002
    first quarter water and sewer bills. See Appendix B for a list of the
    DoD Components receiving water and sewer services from WASA.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    for our review of billing and payment data for water and sewer services provided
    to DoD Components by the District of Columbia.

    Audit Type, Dates and Standards. We performed this program audit from July
    through October 5, 2001, in accordance with generally accepted Government
    auditing standards except we were unable to obtain an opinion on our system of
    quality control. The most recent external quality control review was withdrawn
    on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD, the U.S. Treasury, and the District of Columbia
    Water and Sewer Authority. Further details are available upon request.

Prior Coverage
    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-159, “Promptness and
    Completeness of FY 2001 Fourth Quarter DoD Payments to the U.S. Treasury for
    Water and Sewer Services Provided by the District of Columbia,” July 13, 2001




                                        5
Inspector General, DoD, Report No. D-2001-100, “Promptness and
Completeness of FYs 2000 and 2001 DoD Payments to the U.S. Treasury for
Water and Sewer Services Provided by the District of Columbia,” April 13, 2001

Inspector General, DoD, Report No. D-2001-053, “DoD Payments to the U.S.
Treasury for Water and Sewer Services Provided by the District of Columbia,”
February 15, 2001




                                   6
Appendix B. DoD Customers of the District of
Columbia Water and Sewer Authority
According to the District of Columbia Water and Sewer Authority, the list below
identifies the 17 DoD Components for which the Water and Sewer Authority provides
estimated bills to the U.S. Treasury for water and sewer services for FY 2002.


       Army
       Arlington Cemetery
       Fort McNair
       Fort Myer
       Walter Reed Army Medical Center

       Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks, 8th & I
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Potomac Annex
       Washington Navy Yard

       Air Force
       Bolling Air Force Base

       Other Defense Organizations
       National Defense University Center
       National Imagery and Mapping Agency
       National War College
       Washington Headquarters Services




                                         7
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Commander, Fort Myer
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Defense Organizations
Director, Defense Finance and Accounting Service
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of the Treasury




                                           8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                           9
Audit Team Members

The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Garold E. Stephenson
Richard B. Jolliffe
Henry F. Kleinknecht
Ronald W. Hodges
Lorin T. Pfeil
Pauletta P. Battle
